Pillersdorf Law Offices
Attorneys at Law
Ned Pillersdorf
pillerin@gmailcom

Ryan D. Mosley
ryandmosley@gmail.com
124 West Court Street
Prestonsburg, Kentucky 41653
Phone: (606) 886-6090/ Facsimile: (606) 886-6148

John Rosenberg (Of Counsel)

Website:
www.pillersdorflaw.com

July 21, 2020
Clerk,
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

Eugene Slone v. United States of America

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition of Writ referenced
above contained 5,055 words, excluding the parts of the documents that are exempted by
Supreme Court Rule 33.1(d).
As a member of the Supreme Court Bar, I declare under penalty of perjury that the
foregoing is true and correct.
Sincerely,
Ned Pillersdorf

RECEIVED
JUL 2 9 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

